                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

   Case Number: A07120064                                                                      Page I of I



                    Our inquiry determined that an allegation of plagiarism in an NSF proposall submitted
            by the PI (subjecti appeared to be substantive. The Institution3 concluded that the PI plagiarized
            materials. The Institution concluded the subject's actions were research misconduct. We
            conculTed with the Institution and recOlmnended NSF make a finding of research misconduct.

                     This memo, the attached Report ofInvestigation, and the Deputy Director's decision
            letter constitute the case closeout. Accordingly, this case is closed.




NSF DIG Fonn 2 (11/02)
                                                                                         CONFIDENTh\L




      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A07120064
                            February 22, 2010



111is Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside
      NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.c. §§ 552, 552a.

                                                                                  NSF OIG Form 22b (11/06)
CONFlDENTL\L                                                                           CONFlDENTL\L



                                           Executive Summar)!

Allegation:       Plagiarism

OIG Inquiry:
         • An unfunded NSF proposal contained text copied from multiple source documents.
         • We referred the allegation to the Subject's Institution for investigation.

Institution Investigation and Actions:

             •    The Institution's inquiry determined the PIon the NSF proposal was responsible
                  for the copied text.
             •    Based on its investigation, the Institution concluded a preponderance of the
                  evidence proved the Subj ect acted recklessly when he plagiarized the text in the
                  NSF proposal.
             •    Consequently, the Institution:
                      • reprimanded the Subject;
                      • required the Subject to complete an institutional online ethics training;
                      • prohibited the Subject fl'om submitting proposals either as PI or co-PI for
                          external funding for one year;
                      • required the Subject to recuse himself from participation as a reviewer in
                          the federal grants process for two years; and
                      • deemed the Subject ineligible to receive a merit pay increase for one year.

OIG Assessment:

      We concur with the Institution that the Subject plagiarized text into one NSF proposal.
      The Act: The Subject plagiarized a total of 104 lines of text into an NSF proposal.

      Intent: We determined that the Subject acted knowingly.
      Standard of Proof: The preponderance of the evidence supports the conclusion that the
      Subject knowingly plagiarized these materials into his NSF proposal.
      Significant Departure: We concur with the Institution in concluding the Subject's
      copying represents a significant departure from community standards.
  orG Recommendations:
       • Send a letter of reprimand to the Subject informing him that NSF has made a
          finding of research misconduct;

         •       Require the Subject to certify any proposals he submits to NSF for a period of 2
                 years contain no plagiarized, falsified, or fabricated material; and

         •       Direct the Subject to provide verification of his completion of the ethics course he
                 was required to take by the Institution within one year.




                                                  1
     CONFIDENTL\L                                                                      CONFIDENTL\L




                                              OIG's Inquiry

    Our analysis of the NSF proposal, I submitted by the peand 4 co-PIs revealed about 104 lines of
    text apparently copied from 4 source documents. 3 We initiated our inquiry by writing to each of
    the five investigators on the proposal (Tab A).

    After reviewing the individual responses (Tab A), it appeared that the Subject was likely the
    individual who copied the text into the proposal. In the Subject's response, he admitted to
    copying the materials from three ofthe four source documents ~nd explained that the fOUlih
    source document was his own file, and he was not aware that the material in the fOUlih source
    should have been cited. Further, he said he was

           very embanassed to say that due to the rush to beat a 5PM CST deadline on
           January 25, 2007, a draft. copy of the proposal (that was incomplete and not
           properly edited and cited) had been inadveliently submitted to the MR1 program
           last year. In fact, the proposal has already been retUlned to us by NSF last April
           without review because of its major deficiencies ... 4

    Since the Subject's response did not dispel the allegation, we detennined there was sufficient
    substance to wanant an investigation, and refened the investigation to the Subject's and co-PIs'
    Institution (Tab B).
                                         Institution's Investigation

The Institution, following its POlicy 5, opened 5 separate inquires to detemune if sufficient
evidence existed to wanant an investigation against any of the investigators listed onthe
proposal. The Inquiry Committees found no evidence of research misconduct by the 4 co-PIs, 6
but determined there was sufficient evidence to wanant an investigation of possible research
misconduct by the Subject. 7

The Investigation Committee's ReportS (the Report) outlined its process, which included
analyzing additional material written by the Subject for possible plagiarism as well as
interviewing the Subject. 9 During the investigative interview, the Subject




2

3 Source dO';UlIlents
4 Tab A, Response from the Subject.
, Tab C, Institution Policy and Procedures.
6 Tab C, Enclosures 3-6.
7 Tab C, Enclosures 7 and 12.
S Tab    Enclosure 14.
9




                                                   2
     CONFIDENTLIL                                                                         CONFIDENTL\L



             acknowledged that he had written around ten proposals. Although he received no
             fonnal training in proposal preparation he said he understood the NSF policy that
             a proposal be cited like a manuscript and that he understood what constituted
             plagiarism." to

     He claimed he had a great deal of other work to do when he was preparing the proposal and,
     consequently, did not get to work on the proposal until a few days before the NSF submission
     deadline. He further stated that "despite having used Fastlane previously he underestimated the
     difficulty in putting together a multi-PI proposal.,,11 Finally, he said his plan was to quote some
     of the materials he copied and edit the remaining materials. However, the Connnittee noted that

            since the bulk of the introduction consists of copied material, simply adding
            quotation marks and citations would have seriously weakened the proposal. As it
            stands the introduction makes a strong case for funding it. With quote marks and
            no other editing, the material would no longer be plagiarized but would have
            revealed that the PI had contributed little intellectual content to the introduction.
            In that case the NSF reviewers were likely to have rejected the proposal as lacking
            in novelty andlor originality. 12

 The Committee concluded the preponderance of the evidence supported a conclusion that: 1) the
 Subject committed plagiarism, which was a significant departure from the accepted practices,
 and 2) the actions of the Subject were reckless. 13 The Committee fuliher commented that some
 of the evidence suggested that the Subject's actions were intentional; however, the evidence was
 not adequate enough to meet the preponderance standard. 14

 Finally, the Committee noted that none ofthe versions of the proposal it reviewed contained
 references to the copied materials; however, based on its review of other materials, it concluded
 that the Subject's action was an isolated event, and hence there was no pattern. The Committee
 also assessed possible mitigating factors, finding none that were significant. 15

After reviewing the RepOli, the Subject requested that the Committee reconsider its conclusions
and recommendations. The Committee reviewed the Subject's comments, questions, and
criticisms, made a few conections, but made no substantive changes to the RepOli, which it
forwarded to the adjudicator. 16 The adjudicator l7 notified the Subject and provided him with a
fmal copy of the RepOli. 18 The Subject appealed the research misconduct finding. 19 However,




JO Tab C, Enclosure 14, page 3.
11 Tab C, Enclosure 14, page 3
12 Tab C, Enclosure 14, page 5.
13 Tab C, Enclosure 14, page 5.
14 Tab C, Enclosure 14, page 5.
15 Tab C, Enclosure          6.
16        Enclosure
17

IS   Tab C, Enclosure 15.
19   Tab C, Enclosure 16.


                                                    3
     CONFIDENTLU                                                                              CONFIDENTLU


     the appeal was denied by the adjudicator. 20 The adjudicating official invoked the following
     actions against the Subject:

        1. You may not be permitted to submit proposals or be included as a co-investigator
            on proposals for external funding for a period of one year ending on March 6,
            2010.
        2. You are to recuse yourself from pmiicipation as a reviewer in the Federal grant
           process for a period of two years ending on March 6, 2011.
        3. You will not be eligible for a merit pay increase for a period of one year ending
           on March 6, 2010.
        4. You are required to complete CITI on-line training on responsible conduct of
                                                               21
           research within 3 months of receipt of this letter.

                                               GIG's Assessment

 Upon receiving the RepOli, we wrote the Subject informing him of our independent investigation
 and asked if he had additional conmlents conceming the Re~ort.22 The Subject's response
 included the infOlmation he used in his appeal to the University. 3 We evaluated the Repoli and
 accept it as accurate and complete, alld we conclude the Institution followed reasonable
 procedures in its investigation. The Committee was thorough in assessing the evidence and fair
 in its evaluation. The only aspect of the Institution's investigation that we do not agree with is
 its determination of the level of intent with which the Subject acted. We discuss our conclusions
 below.

 NSF's Research Misconduct Regulation states that a finding of misconduct requires:

           (1) There be a significant depatiure from accepted practices of the relevant
           research community; and (2) The research misconduct be committed
           intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
           preponderance of the evidence. [45 CFR § 689.2(c)]

                                                   The Act

Through the Subject's admission and the Institution's investigation, we detelmined the Subject
copied verbatim text, totaling 104 lines into an unfunded NSF proposal, without proper
attribution. None of the 4 source documents appear as references in the proposal. The total
amount of copied material represents about 2 pages of text in the introduction.




20 Tab C, Enclosure 17.
21 Tab C, Enclosure 18. The CITI Program is a subscription service providing research etltics education to all
  members of the research community.
22 Tab D
23 Tab E




                                                      4
 CONFIDENTL\L                                                                       CONFIDENTHL




 During the investigation, the Subject indicated he understood the standards and expectations
 related to the preparation of an NSF proposal, and he understood what constitutes plagiarism.
 He also indicated that this was not the first NSF proposal he submitted; rather, he had submitted
 10 prior NSF proposals over the past 10 years. 24 We conclude, therefore, the Subject had both
 experience in writing and submitting proposals and an understanding of NSF's expectations.

Further, although the Subject's native language is not English, he received both his master's and
doctorate at well-known Universities in the U.S. 2S and, therefore, could reasonably be expected
to have background in U.S. research citation practices. Based on our review of the evidence, his
self-professed understanding of NSF expectations and his experience writing and submitting
NSF proposals, we conclude the Subject knowingly copied the text into his NSF proposal.

                                        Standard o(Proo(

Based on our review and the review of the Institution's investigation committee, we concluded
that the preponderance of the evidence indicates that the Subject copied text into his proposal
without appropriately distinguishing that text from his own work. Fmiher, OIG concludes, as
did the Committee, that the Subject's behavior deviates from accepted practices. 26

Because the preponderance of the evidence proves that the Subjects knowingly copied text into
an NSF proposal, OIG concludes that the Subject's actions constitute plagiarism and therefore
research misconduct.

                                       Subject's Response

We wrote to the Subject on December 2,2009, seeking his response to our draft investigation
report (Tab F). In his reply (Tab G), the Subject again asselied the same concems expressed in
his May 14, 2009, response (Tab E) to our request for comment about the Institution's
Investigation repOli (Tab E). The subject reiterated that the Institution mistakenly and
erroneously submitted a draft version of his NSF proposal. He fmiher asserts that the Institution
failed to follow its procedures when it submitted the proposal to NSF via FastLane, because it
was done without his "official" pennission. He previously raised this issue with the adjudicator
when he appealed the Institution's Investigation report, arguing the proposal had been
mistakenly submitted without his, or his co-PI's, [mal signatures as expected in the institution's
procedures. The adjudicator denied his appeal, admitting that, although the exact procedures had




                                                5
 CONFIDENTLll                                                                        CONFIDENTLll



 not been followed, the Subject had provided, via email, more than sufficient approval for the
 proposal to be submitted (Tab C, Enclosure 17: March 5, 2009, letter from the adjudicator). The
 adjudicator concluded that the Subject's "claim that the material in [his NSF Proposal] was only
 a draft el1'0neously submitted by the Office of Research Administration without [his] permission
 is not supported, and [the Subject's] appeal provides no substantive new evidence in [his]
 favor.,,2
We reviewed the documents and find particularly persuasive an email from the Subject
expressing his appreciation that the proposal had been submitted. 28 If the proposal had been
submitted erroneously one could reasonably expect to see a request for withdrawal or
modification of the proposal from the institution or PI or some discussion about such an action.
We could fmd no documentation that the Subject requested that the Institution withdraw the
proposal. Fmthermore, we contacted FastLane and learned that no service requests were created
by the Subject, or for the proposal. Therefore there is no evidence that the Subject attempted to
withdraw or make changes to the proposal at any time. Thus we conclude that there is no
evidence to SUppOlt that the proposal was el1'0neously or incol1'ectiy submitted. Consequently,
we have not changed the repOlt based on the Subject's response.


                                 GIG Recommended Disposition

\.\/hen deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

       (l) How serious the misconduct was. (2) The degree to which the misconduct was
       knowing, intentional, or reckless. (3) Whether it was an isolated event or Palt of a
       pattern. (4) Whether it had a significant impact on the research record, research
       Subjects, other researchers, institutions or the public welfare. And (5) other
       relevant circumstailCes. [45 C.F.R. §689.3(b)]

                                            Seriousness

Plagiarism strikes at the very heart of research integrity and is an unacceptable practice within
the research community. In addition,

       NSF expects strict adherence to the rules of proper scholarship and attribution.
       The responsibility for proper attribution and citation rests with authors of a
       proposal; all parts of the proposal should be prepared with equal care for this
       concern. Serious failure to adhere to such standards can result in findings of
       research misconduct. NSF policies and rules on misconduct in science and
       engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
       in 45 CFR Part 689. [GPG section LB. (l0/2003)]




                                                6
   CONFIDENTLll                                                                                             CONFIDENTHL



  The Subject's actions are a violation of the standards of scholarship long established by NSF. 29.
  The extent of the plagiarism is significant as is the Subject's failure to reference any of the four
  source documents in his proposal.

                                                              Degree o[Intent

  The act of plagiarism is generally an act done knowingly. Given the Subject's statements, his
  numerous submissions of NSF proposals as the PI over the past 10 years, and his publishing
  history, it is clear the Subject knew what NSF expected the author of the proposals to do. We
  concur with the Institution's Investigation Committee that the Subject's actions could be
  interpreted as intentional; however, the preponderance of the evidence can not support such a
  conclusion. However, the Subject's actions were distinctly knowing.

                                                     Impact on the research record

 There is no evidence of any impact on the research record as a result of the plagiarism in the
 proposal the Subject submitted to NSF.

                                                            Recommendations

 Based on the evidence, orG recommends that NSF:

              •     Send a letter of reprimand to the Subject informing him that NSF has made a finding
                    of research misconduct;30

             •     Require the Subject to certify that proposals he submits to NSF do not contain
                   plagiarized, falsified, or fabricated material for 2 years/ 1

             •     Direct the Subject to attend a course in research ethics within 1 year of the fmal
                   disposition of the case and certify to NSF's orG that he has done SO.32

The Subject's certifications and proof of an ethics course should be sent to the Associate
Inspector General for Investigations for retention in OIG's confidential file on tllis matter.


29 As early as 1976, in the Grants/or Scientific Research. (NSF application guide for principal investigators) NSF
instructed proposal submitters that "A proposal should be self-contained and written with the care and thoroughness
accorded papers prepared for publication." NSF76-38, page 2. Since that time, that concept has appeared and been
expanded upon in each successive iteration of this guide. The current Grant Proposal Guide states that the proposal
"should be prepared with the care and thoroughness of a paper submitted for publication ... NSF expects strict
adherence to he IUles of paper scholarship and attribution. The responsibility for proper scholarship and attribution
rests with the authors ofthe proposal; all parts of the proposal should be prepared with equal care for this concern.
Authors other than the PI (or co-PI) should be named and acknowledged. Serious failures to adhere to sllch
standards can result in fIndings of research misconduct. NSF polices and mles on research misconduct[here NSF provides
the definition ofrmarch misconduct] are   discussed in the AAG Chapter VILe, as well as 45 CFR Part 689." NSF   IO~O 1 Grant
Proposal Guide I.E.3.
30 This is a Group I actions, 45 CFR §689.3(a)(l)
31 This is equivalent to a Group I action 45 CFR §689.3(a)(l)
32 This is equivalent to a Group I action 45 C.F.R. §689.3(a) (I).




                                                                    7
                                     NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




         OFFICE OF THE
       DEPUTY r?!RECTOR                    JUN 2·9 2010



   CERTIFIED MAlL --RETURN RECEIPT REQUESTED




         Re: Notice ofResearch A1iscol1duct Determillatioll

  De
                             . you submitted a proposal to the National Science Foundation
. ("NSF") entitled,
                                                           , As documented in the attached
 Investigative Report prepared by NSF's Office of Inspector General ("OIG"), this proposal
 contained plagiarized text.

 Research Misconduct and Proposed Sanctions
        Under N"SF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689. 1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689. I (a)(3) .. A finding of research misconduct
requires that:

        (l) There be a significant depaIture from accepted practices of the relevant research
            community; and
        (2) The research misconduct be committed intentionally, or \mowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

       Your proposal contained verbatim and paraphrased text, copied from four source
documents. By SUbmitting a proposal to NSF that copied the ideas or words of another without
adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
                                                                                             Page 3
  Procedures Governing Appeals
          Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal
 of this decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
 should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
 Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
 decision will become final.

        For your information, we are attaching a copy of the applicable regulations. If you have
 any questions about the foregoing, please call             Assistant General Counsel, at (703)
 292-8060.                                                                  .



                                                     Sincerely,




                                                    Cora B. Marrett
                                                    Acting Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
